DOE/IG-0493




         AUDIT                   INTERNET PRIVACY
        REPORT




                                       FEBRUARY 2001




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                             February 9, 2001



MEMORANDUM FOR THE SECRETARY

FROM:                 Gregory H. Friedman (Signed)
                      Inspector General

SUBJECT:              INFORMATION: Report on "Internet Privacy"

BACKGROUND

Recently enacted appropriations law required agency Inspectors General to report within 60 days on the
collection of information about individuals accessing agency web sites. With limited exceptions, the
Department of Energy is prohibited from collecting personal information from individuals accessing its
public web sites, and must post conspicuous privacy notices containing clear and unambiguous explanations
of any permissible data collection activities and their purpose. The most prominent example of an
impermissible collection method is through the use of "persistent cookies." Persistent cookies are small
files containing unique identifiers that a web server places on a site visitor's computer that can be used to
retrieve information about the user. These files remain embedded in a user's hard drive and can facilitate
information collection until they expire or are removed.

The objective of our audit was to determine whether the Department's method of collecting data from its
public web site visitors was consistent with applicable Federal regulations.

RESULTS OF AUDIT

Based on the results of our audit, we concluded that the Department cannot assure that the privacy of its
web site visitors is properly protected in all instances. The Department's data collection methods were not
uniformly consistent with applicable regulations. Our review of 93 web sites sponsored by the Department
or its contractors disclosed that approximately 12 percent impermissibly employed persistent cookies to
collect information from site visitors. Further, approximately 30 percent of the web sites we reviewed did
not satisfy Federal disclosure requirements.

These Internet site privacy control weaknesses occurred because the Department lacked clear and current
implementing guidance and did not provide consistent oversight of web development and operation. It is
important to note that Federal guidance in this area continues to evolve.

MANAGEMENT REACTION

The Office of the Chief Information Officer agreed with our recommendations and agreed to take
immediate corrective action.



Attachment

cc: Under Secretary for Nuclear Security/Administrator for Nuclear Security
INTERNET PRIVACY

TABLE OF
CONTENTS



                   Overview

                   Introduction and Objective ............................................................1

                   Conclusions and Observations .....................................................1


                   Data Collection and Disclosure Concerns

                   Details of Finding .........................................................................3

                   Recommendations and Comments ..............................................7


                   Appendices

                   1. Web Sites Using Persistent Cookies .......................................9

                   2. Web Sites with Inadequate or Missing Privacy Notices ..........10

                   3. Scope and Methodology .........................................................12

                   4. Prior Reports ...........................................................................14
OVERVIEW
                   On December 15, 2000, the Treasury and General Government
INTRODUCTION AND
                   Appropriations Act of 2001 (Act) was enacted. Section 646 of
OBJECTIVE
                   the Act specifically requires the Inspector General to report on
                   any activity related to the collection of information from
                   individuals accessing Departmental Internet sites. Activities
                   related to internal data collection efforts and agreements with
                   third parties to collect personally identifiable data must be
                   reported to Congress no later than 60 days after enactment.

                   The Privacy Act and implementing Federal guidance prohibits
                   the involuntary collection or review of personally identifiable
                   information relating to an individual's access to or use of any
                   Internet (web) site of a Federal department or agency. The
                   prohibition on the gathering and monitoring of personal
                   information also applies to Government contractors and other
                   related third parties. With limited exception, the Department is
                   prohibited from collecting information from individuals that
                   access its web sites through the use of techniques that are not
                   disclosed and are not readily apparent to the user. In most
                   instances, Office of Management and Budget (OMB)
                   regulations prohibit the Department from using data collection
                   techniques such as "persistent cookies." Persistent cookies are
                   small files containing unique identifiers that a web server places
                   on a site visitor's computer that can be used to retrieve
                   information about the user. These files remain embedded in a
                   user's hard drive and can facilitate information collection until
                   they expire or are removed. Collection of data using this
                   technique is permitted only when the organization demonstrates
                   a "compelling need" and such use is specifically approved by
                   the Secretary.

                   The objective of our audit was to determine whether the
                   Department's method of collecting data from users of its
                   publicly accessible web sites was consistent with Federal
                   privacy regulations.


                   The Department's method of collecting data from users of its
CONCLUSIONS AND
                   publicly accessible web sites was not always consistent with
OBSERVATIONS
                   Federal regulations. Specifically, some web sites were
                   collecting data by unapproved or undisclosed means and a
                   number of web sites did not display conspicuously located,
                   clearly written privacy notices. Departmental and OMB
                   guidance expressly prohibit the collection of data through the
                   use of unapproved or undisclosed methods. These regulations

Page 1                                                       Introduction and Objective/
                                                          Conclusions and Observations
         require that web sites conspicuously post privacy notices
         containing clear and unambiguous language that explains data
         collection techniques and the ultimate use of visitor data. Web
         site privacy control weaknesses occurred in a number of
         instances because the Department lacked clear and current
         implementing guidance and did not provide consistent oversight
         of site development and operation. As a result, the Department
         cannot ensure that the privacy of its site visitors is properly
         protected in all instances as required by Federal privacy
         regulations.



                                                        (Signed)
                                               Office of Inspector General




Page 2                                        Conclusions and Observations
DATA COLLECTION AND DISCLOSURE CONCERNS


Persistent Cookies and   The Department's method of collecting data from users of its publicly
Inadequate Privacy       accessible web sites was not always consistent with Federal regulations.
Notices                  Some web sites were collecting data from site visitors by unapproved or
                         undisclosed methods while other sites did not adequately advise users
                         of the web site as to the ultimate use of the information collected.
                         Specifically, some Departmental elements had not fully complied with
                         Presidential and OMB guidance restricting the use of persistent cookies.
                         Also, a number of Departmental web sites did not display
                         conspicuously located, or did not provide clearly written web site
                         privacy policies.

                                            Web Sites with Persistent Cookies

                         Despite prohibitions imposed by Federal and Departmental sources, a
                         number of the Department's publicly accessible web sites were
                         collecting data through an unapproved method. Our review of 93 web
                         sites sponsored by the Department or its contractors disclosed that
                         approximately 12 percent (11) of those sites used persistent cookies to
                         collect information from site visitors. These cookies were written to the
                         web site visitor's hard disk and were potentially capable of collecting
                         data without the user's knowledge for periods ranging from 10 to 37
                         years. None of the persistent cookies discovered during our review met
                         the OMB requirements for an exception to their use and none had been
                         approved by the Secretary as required. Persistent cookies identified by
                         testing a sample of the Department's web sites are listed in Appendix 1.

                         Web site managers gave a variety of reasons as to why persistent
                         cookies were being used on their web sites. Some said they were
                         unaware their web site was performing this function. Others indicated
                         they were aware that persistent cookies were being used but not aware
                         that the practice was prohibited. Several others expressed awareness of
                         the requirements but chose to use the data collection method because
                         they believed that there was a valid requirement for the information.
                         One web site manager told us that she knew of the requirement for
                         direct approval from the Secretary, but chose instead to seek approval
                         from the head of her own organization. All sites that acknowledged a
                         specific purpose for using persistent cookies told us that the data
                         collected was used strictly to enhance web site operation and was not
                         sold or provided to others.




Page 3                                                                     Details of Finding
                                                        Privacy Notices

                           A number of the Department's publicly accessible web sites did not
                           satisfy Federal and Departmental requirements to provide a clear and
                           unambiguous notice to users as to the extent of data collection and the
                           ultimate use of such data. We noted that about 30 percent, or 28 of the
                           93 web sites reviewed did not satisfy Federal disclosure requirements.
                           Specifically, privacy notices were either absent, not conspicuously
                           located, or lacked sufficient detail to appraise users of the extent and the
                           ultimate use of the data collected. The lack of such notices may erode
                           public trust in the Government as visitors to the Department's web sites
                           will not know what to expect regarding personal privacy. Appendix 2
                           details web sites with inadequate privacy notices identified during our
                           review of sampled web pages.


Federal Web Site Privacy   The Privacy Act and implementing Federal guidance published
Requirements               by OMB prohibits the involuntary collection or review of
                           personally identifiable information relating to an individual's
                           access to or use of any web site of the Department. The
                           prohibition on gathering personal information also applies to
                           Government contractors and other related third parties. With
                           limited exception, the Department is prohibited from collecting
                           information from individuals that access its web sites through
                           the use of techniques that are not disclosed and are not readily
                           apparent to the user.

                                                   Data Collection Methods

                           In most instances, Federal web sites are prohibited from
                           collecting data from web site visitors using techniques that are
                           not readily apparent to the user. Generally, OMB specifically
                           prohibits the use of data collection techniques through the use of
                           "persistent cookies." Collection of data in this manner is usually
                           transparent to the web site visitor, and as such, is permitted only
                           in limited circumstances. Specifically, collection of data using
                           this technique is permitted only when the organization
                           demonstrates a "compelling need," the method is fully disclosed,
                           and the practice is approved by the Secretary.




Page 4                                                                         Details of Finding
                                                    Privacy Notices

                        Presidential and OMB guidance require that Federally-operated or
                        sponsored web sites feature a Privacy Notice that explains what
                        members of the public may expect regarding personal privacy while
                        visiting the site. Such web site privacy notices must be conspicuously
                        posted and flow from page to page within the site. In addition, the
                        notice should contain clear and unambiguous language explaining the
                        extent, method, and ultimate use of personal data collected from web
                        site visitors. OMB M-99-18 contains model language for web site
                        Privacy Notices.


Factors Affecting the   Web site privacy control weaknesses occurred because the Department
Web Site Privacy        lacked clear and current implementing guidance and consistent
Control Structure       oversight of web site development and operation. Despite the
                        sensitivity of privacy related issues, the Department had not provided
                        clear and current internal implementing guidance for Federal web
                        privacy requirements. Web privacy oversight was performed only on
                        an ad hoc basis and a consistent process for maintaining oversight of
                        web site development and operation had not been developed. In
                        addition, we noted that the Department had not developed specific
                        privacy related performance goals as required by the Government
                        Performance and Results Act of 1993.

                                        Departmental Implementing Guidance

                        Even though web privacy issues had become the subject of intense
                        Presidential and public attention, the Department did not provide
                        sufficient guidance and did not publish or maintain directives in this
                        area. Web privacy issues first became prominent during May 1998
                        when the President issued a memorandum directing protection of the
                        privacy of citizens accessing Federal web sites. While Departmental
                        officials indicate that guidance was issued to address the President's
                        concern, they were unable to specify the extent of the guidance and
                        could not furnish us with a copy of such direction. Despite the issuance
                        of memorandums from OMB in January 1999 and June 2000 specifying
                        required web privacy related actions, the Department did not move to
                        publish a memorandum implementing such guidance until July 2000.




Page 5                                                                   Details of Finding
         The Department had not issued new or modified existing directives to
         address web privacy related requirements. Departmental officials told
         us that they elected to rely on guidance issued through memorandums
         to program elements instead of incorporating Internet privacy
         requirements in Departmental directives. These same officials
         acknowledged that directives would have been more effective and that
         guidance issued through memorandums did not work its way down to
         the working level in many instances. In addition, the Department has
         allowed both of its directives addressing privacy issues, DOE Orders
         1800.1A and 200.1, to lapse. Officials from the Office of the Chief
         Information Officer (CIO) acknowledged that the lack of direction in
         the privacy area was of concern, but that a severe shortage of resources
         relegated this issue to a low priority level.

                    Web Site Development and Operation Oversight

         The Department does not maintain visibility over web site development
         and operation and performs privacy related oversight activities only on
         an ad hoc basis. Officials from the Office of the CIO told us that
         because of the Department's decentralized information technology
         management structure, they maintain little information regarding the
         Department's publicly accessible web sites. They indicated that the
         Department did not maintain an inventory of web sites and could not
         provide information on web site sponsorship, content, or operation.
         The Department also told us that its oversight of privacy related issues
         for web sites amounted to a single employee, on an ad hoc basis,
         randomly testing web sites for the presence of persistent cookies.
         Reviews to assess compliance with restrictions on data use and the
         sufficiency of privacy notices was not contemplated because of staffing
         constraints.

                                   Performance Goals

         While the Department had developed high level performance goals with
         respect to information technology management, specific web site
         privacy related performance goals required by the Government
         Performance and Results Act of 1993 had not been developed. Privacy-
         related performance goals contained in the Fiscal Year 2000 plan
         related solely to reducing the backlog of Freedom of Information
         request cases. Performance goals related to information technology
         management also did not contain specific goals related to web site
         development or privacy issues. Without specific goals, the Department
         lacks a basis to measure and demonstrate its performance in this highly
         sensitive area.


Page 6                                                     Details of Finding
Privacy Is Not    The Department cannot provide reasonable assurance to visitors of its
Assured           publicly accessible web sites that their privacy is properly protected as
                  required by Federal regulations. Because of the problems noted, the
                  Department cannot consistently assure members of the public that
                  personally identifiable information is being properly collected or used
                  for authorized purposes. Clearly, the trend is to deliver greater
                  quantities of service via the web and maintaining public trust in the
                  right to security of personally identifiable information is of critical
                  importance as the Government moves into the E-commerce arena.


RECOMMENDATIONS   We recommend that the Chief Information Officer take the following
                  actions to enhance Internet privacy in the Department:

                     1. Require cognizant Program Offices to review all publicly
                        accessible web sites for compliance with Federal privacy
                        requirements and formally report results to the Secretary within
                        90 days.

                     2. Require cognizant Program Offices to catalog publicly
                        accessible web sites, to include public field and contractor web
                        sites, and periodically test them for compliance with Federal
                        privacy requirements.

                     3. Develop and implement formal guidance regarding
                        requirements and responsibilities for web privacy.

                     4. Develop Internet privacy specific performance measures as
                        required by the Government Performance and Results Act of
                        1993.




Page 7                                                                Recommendations
MANAGEMENT   The Office of the Chief Information Officer (OCIO) agrees with the
REACTION     recommendations of this audit. The sampling done by the Inspector
             General indicates that there continues to be a few web sites that
             have not come into full compliance with the privacy requirements
             established by the OMB and communicated to sites by the OCIO.
             Immediate action will be taken to correct this. It should be noted that
             the audit contains no indication of malicious or inappropriate use of
             data resulting from the existence of persistent cookies on the sites
             identified in the report, and the OCIO does not have any other
             indicators of misuse of data. All web sites use commercial software
             products to improve information transactions on the site for the benefit
             of the user. Many of these products contain cookie features (including
             persistent cookies) that appear to be commonly used in private sector
             web sites. In all cases that the OCIO has reviewed, the responsible
             officials were not aware of the cookie feature and were certainly not
             using it inappropriately. It should also be noted that Government-wide
             policy in this area continues to evolve. A significant change occurred
             in September 2000 with a clarification from OMB that session cookies
             did not present a privacy concern. Until that point, the use of session
             cookies violated OMB policy even though session cookies did not
             present a privacy concern and were in fact often critical to a web site's
             ability to be useful and timely to any individual accessing the site.


 AUDITOR     Management's comments are responsive to our recommendations.
 COMMENTS




Page 8                                                 Recommendations and
                                                       Comments
Appendix 1

                              WEB SITES USING PERSISTENT COOKIES

                              Web Site                                                  Web Address

         Environmental Management Site Closure                      http://apps.em.doe.gov/closure
         Bonneville Power Administration                            www.bpa.gov
         Brookhaven National Laboratory                             www.bnl.gov/bnl.html
         Central Internet Database                                  http://cid.em.doe.gov
         "My ES&H Page"                                             http://tis.eh.doe.gov/portal/home.htm
         Federal Energy Regulatory Commission                       www.ferc.fed.us
         Environmental Management – IPABS                           http://ipabs-is.em.doe.gov/ipabs
         Long Term Stewardship Information Center                   http://lts.apps.em.doe.gov
         Departmental Risk Center                                   www.riskcenter.doe.gov
         Environmental Management Scholar Search                    http://scholarships.em.doe.gov
         Waste Isolation Pilot Plant                                www.wipp.carlsbad.nm.us/wipp.htm


    Notes:

    1.    During our audit, we notified web site managers when persistent cookies were observed. Some web sites have
          since either removed the persistent cookies or changed them to session cookies.

    2.    The persistent cookies listed above were identified through a review of 93 judgmentally selected Internet sites.




Page 9                                                                          Web Sites Using Persistent Cookies
Appendix 2

                                WEB SITES WITH INADEQUATE
                                OR MISSING PRIVACY NOTICES


                                                                                 No       Insufficient
                                                                               Privacy      Privacy
               Web Site                      Web Address                        Policy       Policy
    Advanced Computing            www.acl.lanl.gov                                             X
    Laboratory
    Albuquerque Operations Office www.doeal.gov                                                 X
    Argonne National Laboratory www.anl.gov                                                     X
    Brookhaven National              www.bnl.gov/bnl.html                                       X
    Laboratory
    Chief Financial Officer          www.cfo.doe.gov                                            X
    Defense Programs                 www.dp.doe.gov
    Denver Regional Office           www.eren.doe.gov/dro                          X
    Fermi National Accelerator       www.fnal.gov                                                X
    Laboratory
    General Counsel                  www.gc.doe.gov                                              X
    Idaho Operations Office          www.id.doe.gov                                              X
    Independent Oversight and        www.tis.doe.gov/iopa                                        X
    Performance Assurance
     Notes:
    INEEL                            www.inel.gov                                                X
    Long  Term
     1. The     Stewardship
            Internet                 http://lts.apps.em.doe.gov
                     sites with inadequate                                                       X
                                            privacy notices were identified through a review of 93
    Information Centerselected web sites.
        judgmentally
    Kansas City Plant                www.os.kcp.com                                              X
    Lawrence Berkeley Laboratory     www.lbl.gov                                                X
    Lawrence Livermore National      www.llnl.gov                                               X
    Laboratory
    Los Alamos National              www.lanl.gov                                 X
    Laboratory
    New Brunswick Laboratory         www.nbl.doe.gov                              X
    Oak Ridge Institute for Science www.orau.gov/orise.htm                        X
    and Education
    Oak Ridge National Laboratory www.ornl.gov                                    X
    Oak Ridge Operations             www.oakridge.doe.gov                         X




Page 10                                                                  Web Sites with Inadequate or
                                                                         Missing Privacy Notices
                                            WEB SITES WITH INADEQUATE
                                            OR MISSING PRIVACY NOTICES


                                                                                                No         Insufficient
                                                                                              Privacy        Privacy
                  Web Site                                 Web Address                         Policy         Policy

    Oakland Operations Office               www.oak.doe.gov                                      X
    Pantex Plant                            www.pantex.com                                       X
    Princeton Plasma Physics                www.pppl.gov                                         X
    Laboratory
    Sandia National Laboratory              www.sandia.gov                                                        X
    Stanford Linear Accelerator             www.slac.stanford.edu                                                 X
    Center
    Jefferson Laboratory                    www.jlab.org                                         X
    Waste Isolation Pilot Plant             www.wipp.carlsbad.nm.us/wipp.htm                                      X
    BWXT Y-12                               www.y12.doe.gov/.index.html                                           X
    Y-12 Security Complex                   www.y12.doe.gov/.index.html/y12.html                                  X


    Notes:

    1.    The Internet sites with inadequate privacy notices were identified through a review of 93 judgmentally selected
          web sites.




Page 11                                                                                 Web Sites with Inadequate or
                                                                                        Missing Privacy Notices
Appendix 3
SCOPE         The scope of this audit was limited by a 60-day time constraint
              imposed by the Act. The audit was performed between December 18,
              2000 and February 2, 2001. The audit was conducted at Headquarters
              and covered a review of the controls in place to ensure that the
              Department's collection of data associated with its publicly accessible
              web sites was consistent with Federal and Departmental guidance.
              The scope of the audit was also constrained by the absence of
              information relating to the total population of the Department's
              publicly accessible web sites and web hosting contracts.

METHODOLOGY   To satisfy the audit objective, we:

                     •   Reviewed Federal and Departmental regulations,
                         guidance, and correspondence for ensuring web site
                         privacy;

                     •   Reviewed Departmental strategic plans and performance
                         goals for compliance with the Government Performance
                         and Results Act of 1993;

                     •   Tested a judgmental sample of Departmental web sites and
                         analyzed the use of cookies and the placement and content
                         of privacy policy notices;

                     •   Interviewed cognizant officials in the Office of CIO and
                         other Department personnel responsible for web sites and
                         privacy issues;

                     •   Interviewed Departmental personnel to determine whether
                         there were any formal complaints or "Hotline" calls related
                         to web site privacy; and,

                     •   Reviewed third party web hosting contracts to determine
                         whether they adequately addressed privacy issues.

              The audit was performed to satisfy the requirements of Section 646
              of the Treasury and General Government Appropriations Act of 2001
              (P.L. 106-554). The audit was conducted in accordance with
              generally accepted Government auditing standards for performance
              audits and included tests of internal controls and compliance with
              laws and regulations to the extent necessary to satisfy the audit
              objective. We did not rely on computer processed data to accomplish
              our audit objective. Because our audit was limited, it would not



Page 12                                                Scope and Methodology
          necessarily have disclosed all internal control deficiencies that may
          have existed. Due to time constraints imposed by the Act, a formal exit
          conference was not held with management officials. Management was,
          however, given an opportunity to review the report in draft form and
          offer comments.




Page 13                                           Scope and Methodology
Appendix 4

                                   PRIOR REPORTS
                     BY THE U. S. GENERAL ACCOUNTING OFFICE


          •   Internet Privacy: Agencies' Efforts to Implement OMB's Privacy Policy, GGD-00-191.
              Although progress has been made at Federal web sites, privacy policies were not as
              yet sufficiently or adequately posted. OMB guidance found in M-99-18 is unclear
              regarding cookies as well as other terms. The Report also suggested insufficient
              oversight as a cause of the problem.

          •   Internet Privacy: Comparison of Federal Agency Practices with FTC's Fair
              Information Principles, AIMD-00-296R. This Report was generated from a Senate
              request. It compared Federal practices regarding privacy with guidelines set by FTC.
              OMB had serious problems accepting this comparison, as FTC guidelines are for the
              commercial market, not the public sector.

          •   Internet Privacy: Federal Agency Use of Cookies, GAO-01-147R. GAO reviewed 65
              Federal web sites and found undisclosed persistent cookies at 9 of them. One of those
              was a Department web site at Ames Laboratory.




Page 14                                                                                    Prior Reports
                                                               IG Report No. : DOE/IG-0493

                             CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have
any questions about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                              Office of Inspector General (IG-1)
                                    Department of Energy
                                   Washington, DC 20585

                                 ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                       following alternative address:


                   U. S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov


                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
